Audit Report




OIG-07-043
GENERAL MANAGEMENT: Departmental Offices Did Not Have
An Effective Workers’ Compensation Program
July 13, 2007




Office of
Inspector General
Department of the Treasury
Contents


Audit Report.................................................................................................... 1

Background ..................................................................................................... 2

Finding and Recommendations .......................................................................... 3

    Departmental Offices Did Not Have an Effective Workers’
    Compensation Program ................................................................................ 3
    Recommendations ....................................................................................... 6


Appendices

    Appendix 1:          Objective, Scope, and Methodology ........................................ 8
    Appendix 2:          Management Response ......................................................... 9
    Appendix 3:          Report Distribution................................................................ 10


Abbreviations

    COP                  Continuation of Pay
    DO                   Departmental Offices
    FECA                 Federal Employees’ Compensation Act
    Fund                 Employees’ Compensation Fund
    OHR                  Office of Human Resources for Departmental Offices
    OIG                  Office of Inspector General
    OWCP                 Office of Workers’ Compensation Programs
    Treasury             Department of the Treasury
    WCP                  Workers’ Compensation Program




                         GENERAL MANAGEMENT: Departmental Offices Did Not Have                              Page i
                         An Effective Workers’ Compensation Program (OIG-07-043)
This Page Intentionally Left Blank.
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                       July 13, 2007

                       Rochelle F. Granat
                       Deputy Assistant Secretary for Human Resources
                         and Chief Human Capital Officer

                       The Federal Employees’ Compensation Act (FECA) provides
                       compensation benefits to civilian employees of the United States
                       for disability due to personal injury or disease sustained while they
                       are in the performance of duty. FECA also provides for payment of
                       benefits to an employee’s dependents if a work-related injury or
                       disease causes the employee’s death. We are conducting a series
                       of audits at select Department of the Treasury bureaus to
                       determine whether they have effective programs in place to
                       monitor employees receiving workers’ compensation payments. In
                       this regard, we reviewed the workers’ compensation program
                       (WCP) within Treasury’s Departmental Offices (DO).1 This report
                       presents the results of our review. Appendix 1 contains a
                       description of our objective, scope, and methodology.

                       In brief, we found that DO did not (1) monitor the status of cases
                       on the periodic rolls, (2) maintain adequate case files, (3) institute
                       a return-to-work program, (4) review quarterly FECA chargeback
                       reports for errors or potential program abuse, and (5) establish
                       written policies and procedures for this activity. We are making
                       three recommendations in this report to address these conditions,
                       including a recommendation to determine, in light of the limited
                       number of DO FECA cases, whether this activity should be
                       outsourced to another Treasury bureau. In your management
                       response, provided as Appendix 2, you concurred with these
                       recommendations.


1
 DO is the title placed on the offices that support the Treasury Secretary in policy formulation and
overall internal management and control.

                       GENERAL MANAGEMENT: Departmental Offices Did Not Have                       Page 1
                       An Effective Workers’ Compensation Program (OIG-07-043)
Background
                        FECA benefits include compensation for lost wages, monetary
                        awards for bodily impairment or disfigurement, medical care, and
                        vocational rehabilitation. Rising government costs for FECA
                        (increasing from $1.4 billion in 1990 to $2.3 billion in 2004) have
                        prompted federal agencies and their Offices of Inspector General
                        (OIG) to look for ways to reduce costs, return more people to
                        work, and increase identification and prevention of fraud in the
                        program.

                        The Department of Labor Office of Workers’ Compensation
                        Programs (OWCP) and more than 70 employing federal agencies
                        share responsibilities for ensuring the efficiency, effectiveness, and
                        integrity of the major benefit program established under FECA.
                        OWCP’s Injury Compensation for Federal Employees serves as a
                        handbook for federal agency personnel specialists, compensation
                        specialists, and supervisors.2

                        All workers’ compensation claims are adjudicated by OWCP.
                        FECA provides that an employee’s regular pay may be continued
                        for up to 45 calendar days to avoid interruption of an employee’s
                        income, while the case is being adjudicated by OWCP. This 45-day
                        time frame is referred to as the continuation-of-pay (COP) period.
                        OWCP begins paying FECA compensation benefits at the end of
                        the COP period. Compensation for wage loss is paid as a
                        percentage of the employee’s salary. The Employees’
                        Compensation Fund (Fund) finances OWCP FECA payments.

                        Workers’ compensation costs are assigned to employing agencies
                        annually at the end of the fiscal accounting period, which runs
                        from July 1 to June 30. Each year, OWCP provides each agency
                        with quarterly chargeback reports, then a final, annual chargeback
                        billing list, which is a statement of payments made from the Fund
                        on account of injuries to its employees. Employing agencies include
                        these amounts in their budget requests to Congress. The sums
                        appropriated to agencies as a result of these budget requests are
                        deposited into the Fund.


2
    OWCP Publication CA-810, “Injury Compensation for Federal Employees” (January 1999).

                        GENERAL MANAGEMENT: Departmental Offices Did Not Have              Page 2
                        an Effective Workers’ Compensation Program (OIG-07-043)
                     Employing agencies play a major role in containing FECA costs by
                     maintaining contact with the employee, helping recovering
                     employees return to work, and accommodating light duty work,
                     when possible.

                     The Deputy Assistant Secretary for Human Resources and Chief
                     Human Capital Officer, through the Office of Human Resources for
                     Departmental Offices (OHR),3 is responsible for providing consulting
                     service to DO on human resources issues, including recruitment
                     and retention, employee and labor relations, benefits and
                     retirement, employee development and training, and pay
                     administration. This office is also responsible for DO workers’
                     compensation claims. From July 2005 to June 2006, DO cases
                     accrued approximately $571,000 in workers’ compensation
                     charges for employee medical benefits, death benefits, and wage
                     loss. During January 2007, the Deputy Assistant Secretary for
                     Human Resources and Chief Human Capital Officer issued guidance
                     on the Treasury WCP that outlines responsibilities for bureau
                     heads, bureau WCP staff, supervisors, and employees.4


Finding and Recommendations

                     Departmental Offices Did Not Have an Effective Workers’
                     Compensation Program

                     We found that DO was doing little to manage its WCP. Specifically,
                     we found that OHR did not (1) monitor the status of cases on the
                     periodic rolls; (2) maintain case files adequately; (3) institute a
                     return-to-work program; (4) review the quarterly FECA chargeback
                     reports for errors or potential program abuse but did review the
                     yearly chargeback bill; and (5) have written policies and procedures
                     for the program. Each of these deficiencies is described in more
                     detail below.




3
  The name of the Office of Human Resources Operations, which was referred to as HR Ops, has been
recently changed to Office Human Resources for Departmental Offices.
4
  Office of Human Resources Strategy and Solutions, Human Resources Issuance System, Chapter 810,
Transmittal No. 07-007, “Workers’ Compensation Program” (January 21, 2007).

                     GENERAL MANAGEMENT: Departmental Offices Did Not Have                 Page 3
                     an Effective Workers’ Compensation Program (OIG-07-043)
                       •   OHR did not monitor the status of DO workers’ compensation
                           cases listed on the periodic rolls.5 OHR staff members stated
                           that the WCP was not a priority at DO after the March 2003
                           divestiture of personnel to the Department of Homeland
                           Security. The OHR staff member responsible for the WCP
                           function reported that she spends no more than 10 percent of
                           her time on FECA related matters. She stated that, due to lack
                           of resources, her office does not review long-term cases or
                           contact long-term claimants and their doctors. In addition, she
                           stated that the case file for a DO employee on the periodic rolls
                           is updated only when either the claimant or OWCP voluntarily
                           supplies DO with relevant documents. OWCP Publication
                           CA-810 encourages active management of workers’
                           compensation programs by agency personnel. We believe that
                           active management of cases on the periodic rolls could result in
                           decreased costs.

                       •   OHR was unable to locate 10 of the 15 WCP case files that we
                           selected for review.6 OHR personnel speculated that their
                           inability to locate the files could be attributable to multiple
                           office moves. We also found that case files were not properly
                           maintained. Some of the standard basic forms were missing
                           from the 5 selected case files that were available for review.
                           Additionally, case files had medical records that were outdated,
                           and some files were unorganized and contained duplicate forms.
                           OWCP Publication CA-810 states that the agency should
                           establish a recordkeeping system which will enable it to
                           maintain copies of claim forms, medical reports, correspondence
                           with OWCP, and other materials related to each compensation
                           claim in an orderly fashion. If case files are missing, OHR cannot
                           actively monitor open claims. Also, without well maintained
                           case files (including updated medical records), DO does not
                           know whether, or when, claimants are eligible to return to
                           work.

5
  If medical reports indicate that disability will continue for at least 60 days after COP, OWCP places the
employee on the periodic rolls and, with appropriate medical documentation, makes automatic payments
every 4 weeks. See Footnote 7 for additional information on the cases that are on the periodic rolls
for DO.
6
  According to the OWCP chargeback report for 2006, DO had 26 workers’ compensation claims that
had a positive balance. The 15 cases in our sample were older cases that had dates of injury ranging
from 1976 to 1999. For the 10 cases that could not be located, the dates of injury were as follows:
four during 1976, five during the 1980s, and one during 1995.

                       GENERAL MANAGEMENT: Departmental Offices Did Not Have                        Page 4
                       an Effective Workers’ Compensation Program (OIG-07-043)
                      •   DO did not have a return-to-work program, nor did it ensure that
                          supervisors took actions to return employees to work when
                          feasible. An OHR specialist acknowledged that OHR needs to
                          develop a return-to-work program, and attributed not having one
                          to a lack of management concern in the past. OWCP Publication
                          CA-810 states that agencies should stay in touch with injured
                          employees while they are receiving compensation, identify jobs
                          suitable for them, and take steps to reemploy recovered or
                          recovering employees as soon as the medical evidence shows
                          that this is possible. A return-to-work program is an effective
                          tool to help minimize FECA costs. Without such a program,
                          DO could be paying benefits to employees who are able to
                          return to work.

                      •   OHR did not review FECA quarterly chargeback reports. Instead,
                          OHR checked only the yearly chargeback bill. OWCP Publication
                          CA-810 states that each agency receives a quarterly report
                          which lists all cases and costs for which charges will appear on
                          the yearly chargeback bill. This report can be used to identify
                          and correct errors before the agency is billed for them. In
                          addition, reviews of chargeback reports may identify possible
                          program abuse. Failure to conduct regular reviews of quarterly
                          reports increases the risk that errors could go uncorrected and
                          that program abuse could go undetected.

                      •   DO did not have written policies and procedures for its entire
                          WCP. OHR management told us that it plans to draft policies
                          and procedures. According to Standards for Internal Control in
                          the Federal Government, internal control and all transactions
                          and other significant events need to be clearly documented, and
                          the documentation should be readily available for examination
                          and may be in paper or electronic form.7 Guidelines are needed
                          to ensure that employees, supervisors, and workers’
                          compensation specialists comply with the FECA and with
                          OWCP regulations. Lack of written policies and procedures
                          increases the risk that key internal controls over the DO WCP
                          may not be performed, thereby increasing the risk of errors or
                          abuse related to the program.
7
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-2.1.3.1 (November 1999).

                      GENERAL MANAGEMENT: Departmental Offices Did Not Have                    Page 5
                      an Effective Workers’ Compensation Program (OIG-07-043)
Recommendations

We recommend that the Deputy Assistant Secretary for Human
Resources and Chief Human Capital Officer do the following:

1. Determine whether, given the number of cases and available
   resources, the administration of DO’s WCP should be retained
   in-house or outsourced to another Treasury bureau.

   Management Response

   OHR is evaluating the feasibility of outsourcing the
   administration of DO’s WCP. If the decision is not to outsource,
   OHR will ensure that all appropriate steps will be taken to meet
   the program responsibilities in-house. The planned corrective
   action date, provided to us separately by OHR, is October 1,
   2007.

   OIG Comment

   We believe that the actions taken or planned by DO address the
   intent of the recommendation.

2. Direct OHR to determine whether additional case files for FECA
   claims are missing and reconstruct appropriate documentation,
   as necessary, to monitor case status going forward for all
   missing cases. This action is necessary regardless of whether
   the FECA program is retained within DO or outsourced.

   Management Response

   OHR has requested master file copies of missing WCP records
   from DOL to ensure that all paid FECA claims are accounted for
   and appropriately monitored. The planned corrective action
   date, provided separately by OHR, is September 1, 2007.

   OIG Comment

   We believe that the actions taken or planned by DO address the
   intent of the recommendation.

GENERAL MANAGEMENT: Departmental Offices Did Not Have         Page 6
an Effective Workers’ Compensation Program (OIG-07-043)
3. Ensure that OHR establishes and implements written policies
   and procedures, in conformance with recently issued
   Departmental guidance, that specify assignment of
   responsibility and detailed actions to be taken in administering
   Treasury’s WCP. Among other things, the policies and
   procedures should (1) ensure that cases on the periodic rolls are
   monitored and case files are maintained in a complete and
   orderly manner, (2) provide for a return-to-work program, and
   (3) ensure that quarterly chargeback reports are reviewed in a
   timely manner. Such written policies and procedures should be
   established and implemented whether the FECA program is
   retained in DO or outsourced to another organization.

   Management Response

   OHR is in the process of developing a return-to-work program.
   OHR also plans to issue internal operating procedures to address
   matters such as monitoring cases and reviewing quarterly
   chargeback reports in a timely manner. The plan date for
   completing these correction actions, provided separately by
   OHR, is October 1, 2007.

   OIG Comment

   We believe that the actions taken or planned by DO address the
   intent of the recommendation.

                              *******

We appreciate the courtesies and cooperation provided to our
staff. If you wish to discuss this report, you may contact me
at (202) 927-5791 or Maria V. Carmona, Audit Manager,
at (202) 927-6345. Major contributors to this report were
Ms. Carmona; Gerald H. Kelly, Auditor-In-Charge; and
Horace A. Bryan, Auditor.



Cedric E. Hammond, Sr.
Acting Director, Fiscal Service Audits


GENERAL MANAGEMENT: Departmental Offices Did Not Have           Page 7
an Effective Workers’ Compensation Program (OIG-07-043)
Appendix 1
Objective, Scope, and Methodology




In accordance with the Office of Inspector General annual plans for
fiscal years 2006 and 2007, we are conducting a series of audits
at select Department of the Treasury bureaus to determine whether
they have effective programs in place to monitor employees
receiving workers’ compensation payments. In this regard, we
reviewed the workers’ compensation program (WCP) within
Treasury’s Departmental Offices (DO).

We performed fieldwork primarily from September 2006 to
December 2006 at DO in Washington, DC. As part of the
fieldwork, we reviewed laws, regulations, and Treasury guidance.
We developed an electronic survey questionnaire to obtain key
information on program oversight and case management efforts
from DO and the other bureaus.

We discussed controls with management, and conducted
interviews, as appropriate, to gain an understanding of the
workers’ compensation process at DO. We interviewed the
following personnel involved in DO’s workers’ compensation
program: the Director of the Office of Human Resources for
Departmental Offices, the Employee & Labor Relations Specialist,
and the Resource Management Support Specialist.

We analyzed data from the 2006 chargeback report and files for
indicators of program abuse, and referred such instances to
our Office of Investigations for further inquiry.

We also selected for review the 15 workers’ compensation cases
with the highest compensation total amount from the 26 DO claims
with a positive balance. These 15 cases accounted for 97 percent
of the total amount charged on the DO chargeback report for
compensation chargeback year 2006.

We conducted our audit in accordance with generally accepted
government auditing standards.




GENERAL MANAGEMENT: Departmental Offices Did Not Have         Page 8
an Effective Workers’ Compensation Program (OIG-07-043)
Appendix 2
Management Response




GENERAL MANAGEMENT: Departmental Offices Did Not Have     Page 9
an Effective Workers’ Compensation Program (OIG-07-043)
Appendix 3
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Departmental Offices

Deputy Chief Human Capital Officer
Director, Office of Human Resources for Departmental Offices

Office of Management and Budget

OIG Budget Examiner




GENERAL MANAGEMENT: Departmental Offices Did Not Have      Page 10
an Effective Workers’ Compensation Program (OIG-07-043)
